           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       HELP GROUP SERVICES, INC.,
           A FEE-FOR-SERVICE
        REPRESENTATIVE PAYEE
                FOR THE
   SOCIAL SECURITY ADMINISTRATION

    September 2008   A-04-08-28040




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      September 9, 2008                                                                       Refer To:

To:        Paul D. Barnes
           Regional Commissioner
             Atlanta

From:      Inspector General

Subject:   Help Group Services, Inc., a Fee-for-Service Representative Payee for the Social
           Security Administration (A-04-08-28040)


           OBJECTIVE

           Our objectives were to determine whether Help Group Services, Inc. (Help Group), as a
           representative payee for the Social Security Administration (SSA), (1) had effective
           safeguards over the receipt and disbursement of Social Security benefits, (2) used and
           accounted for Social Security benefits in accordance with SSA policies and procedures,
           and (3) adequately protected the personally identifiable information of the beneficiaries
           in its care.

           BACKGROUND

           Some individuals cannot manage or direct the management of their finances because
           of their youth or mental and/or physical impairments. Congress granted SSA the
           authority to appoint representative payees to receive and manage these beneficiaries’
           payments. 1 A representative payee may be an individual or an organization. SSA
           selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI)
           beneficiaries or Supplemental Security Income (SSI) recipients when representative
           payments would serve the individuals’ interests. Representative payees are
           responsible for managing benefits 2 in the best interest of the beneficiary. Refer to
           Appendix B for specific representative payee responsibilities.




           1
               The Social Security Act §§ 205(j) and 1631(a)(2), 42 U.S.C. §§ 405(j) and 1383(a)(2).
           2
               We use the term “benefits” generically in this report to refer to both OASDI benefits and SSI payments.
Page 2 – Paul D. Barnes


Since 2001, Help Group has operated as a fee-for-service representative payee for
individuals who received payments under SSA’s OASDI and SSI programs. The
Atlanta Region considers Help Group to be a representative payee of last resort,
meaning many of the beneficiaries it manages are adults who do not have family
members or friends available or willing to represent them. Moreover, many of the
beneficiaries have mental disorders, substance abuse problems, or criminal records
and tend to be transient. During our audit period, August 1, 2006 to July 31, 2007, Help
Group served as representative payee for about 650 (active and terminated) SSA
beneficiaries. Help Group has only two full-time and two part-time employees.

SSA last reviewed Help Group in June 2005. This review found many of the same
issues we identified during this audit. For example, SSA found that Help Group
(1) should have reconciled its collective bank account balance to the individual
beneficiaries’ ledgers, (2) maintained negative ledger balances for some beneficiaries,
(3) needed to notify SSA when an SSI recipient’s resources exceed $2,000, and
(4) wrote checks to vendors without maintaining receipts to support the disbursements.

We performed audit tests on 50 randomly selected beneficiaries to determine whether
Help Group properly managed their benefits. Refer to Appendix C for our complete
Scope and Methodology.

RESULTS OF REVIEW

Help Group did not have adequate controls over the receipt and disbursement of Social
Security benefits. As a result, the funds of hundreds of beneficiaries were at-risk for
improper safekeeping and use. We believe the representative payee’s controls need to
be significantly improved to ensure Social Security benefits are used and accounted for
in accordance with SSA’s policies and procedures.

Contrary to sound accounting practices, Help Group did not reconcile bank statement
balances with its beneficiaries’ ledger balances. Help Group used two bank accounts to
receive and disburse Social Security benefits. As of July 31, 2007, the ledger balances
exceeded the combined bank statement balances by $443,120—indicating the bank
accounts contained insufficient funds to cover the amounts reported in the
representative payee’s ledgers. We believe the lack of routine reconciliations
contributed to the variance. Further, the lack of reconciliations and the significant
variance between the ledgers and bank statements caused us to question the reliability
of Help Group’s financial records.

Since 2001, Help Group has been the representative payee for over
1,000 beneficiaries. Because Help Group did not reconcile the beneficiary ledgers with
the receipts and disbursements listed in its bank statements, we could not determine
the cause of this $443,120 variance without reviewing tens of thousands of transactions
and ledger entries dating back almost 7 years. Accordingly, for our audit period, we
determined we could not rely on the beginning or ending balances in the individual
beneficiary ledger
Page 3 – Paul D. Barnes


accounts. That is, for our audit period, we did not rely on the ledger balances to
calculate any overpayments that appeared to have occurred because of SSI recipients’
excess resources.

Based on our testing, however, we did conclude that most of the benefit payments
received and disbursements made on behalf of the sampled beneficiaries were
accurately recorded in the individual ledgers. Given that reconciliations had not been
performed, but the tested ledger transactions were properly recorded, the
$443,120 variance may have occurred before our audit period and could be related to
transactions that date back as far as 2001.

In addition to the lack of account reconciliations, we found the following.

•     Beneficiary ledger accounts had negative balances—generally indicating Help
      Group spent more funds on behalf of these beneficiaries than the individuals had
      available, effectively borrowing funds from other beneficiaries.

•     Beneficiary ledger accounts exceeded the $2,000 SSI resource limits.

•     Expense transactions lacked sufficient documentation to support whether funds
      were used to pay for the beneficiaries’ current and foreseeable needs.

•     There was a lack of separation of duties over the receipt and disbursement of Social
      Security benefits.

We did find that Help Group adequately protected the personally identifiable information
of the beneficiaries in its care.

ACCOUNT RECONCILIATIONS WERE LACKING

Help Group did not reconcile its bank statement balances to the individual beneficiary
ledger balances. Without such reconciliations, Help Group could not ensure it complied
with SSA’s regulation that requires representative payees to maintain accurate and
complete records for the Social Security benefits it manages. 3 We found that, as of
July 31, 2007, Help Group’s combined bank statement balances were approximately
$443,120 less than the combined beneficiary ledger balances. Specifically, Help
Group’s two bank accounts totaled $340,821 while the beneficiaries’ ledger balances
totaled $783,941.

SSA policy allows a representative payee to commingle Social Security benefits in a
bank account as long as a separate ledger account is maintained for each beneficiary. 4
Help Group used two representative payee bank accounts to manage Social Security

3
 20 C.F.R. §§ 404.2065 and 416.665. See also SSA, Guide for Organizational Representative
Payees - Developing a Representative Payee Accounting System.
4
    SSA, Guide for Organizational Representative Payees – Managing and Conserving Funds.
Page 4 – Paul D. Barnes


benefits—one for the receipt of Social Security benefits and one to disburse funds for
beneficiary expenses. Accordingly, Help Group maintained a separate ledger account
for each beneficiary. However, Help Group did not reconcile the bank statement
balances to the beneficiary ledger balances. Help Group acknowledged it had not
performed reconciliations and could not provide a complete explanation for the
$443,120 variance.

At the time of our audit, Help Group was only verifying that disbursements recorded in
the beneficiary general ledgers were supported by cleared bank checks. Help Group
explained it changed accounting software applications in July 2005. After the transition
to the new accounting system, Help Group did not reconcile beneficiary ledger balances
input to the new accounting system with the balances that existed in the previous
system. As a result, some of the balances brought forward to the new accounting
system may have been incorrect or missing. Help Group concluded that the transition
to the new accounting system may have caused some of the account variances.

We believe the lack of reconciliations attributed to the $443,120 variance between the
bank accounts and the ledger balances. However, because Help Group had not
performed reconciliations for years before our audit, we could not conclusively
determine what caused the variance or when the differences occurred. Based on our
testing, we determined that most of the receipts and disbursements for beneficiaries in
our sample were accurately recorded in the beneficiary ledgers. Nevertheless, we are
concerned the $443,120 variance may indicate that beneficiary funds are missing.

Both SSA and Help Group are responsible for ensuring benefits paid to these often
vulnerable beneficiaries are properly accounted for. Accordingly, SSA should work with
Help Group to reconcile the bank statement balances to the beneficiaries’ general
ledger balances and determine what caused the variance. Most importantly, SSA
should take corrective actions to ensure Help Group resolves all variances in individual
beneficiary ledger balances. Once the accounts are balanced, SSA should ensure
Help Group routinely reconciles the accounts.

PROPER LEDGER BALANCES WERE NOT MAINTAINED

Help Group did not adequately monitor its beneficiaries’ ledgers to ensure proper
balances were maintained. We found 21 (42 percent) of our 50 sampled beneficiaries
had a negative balance at the end or our audit period. Also, three SSI recipients had
balances over the $2,000 maximum resource limit.

Beneficiary Ledger Balances Were Negative

Help Group maintained negative ledger balances for many of the beneficiaries it
served. Specifically, 21 (42 percent) of our 50 sampled beneficiaries had negative
ledger balances totaling $22,523 as of July 31, 2007 (Table 1). Further, 11 additional
beneficiaries had a negative ledger balance for at least 1 month during our audit period.
In effect, beneficiaries with conserved funds were lending money to beneficiaries with
Page 5 – Paul D. Barnes


negative ledger balances to fund monthly disbursements. According to SSA policy, a
representative payee cannot lend one beneficiary’s money to another beneficiary. 5

A Help Group official explained that, in certain months, the organization paid more
allowances and expenses for the beneficiaries than SSA payments received. Further,
Help Group did not review ledger balances to identify and correct negative balance
occurrences. Help Group should closely monitor ledger balances to ensure those
beneficiaries’ allowances and expenses do not exceed their resources.

                Table 1: Negative Ledger Balances as of July 31, 2007
                                 Beneficiary     Beneficiary Ledger
                                  Sample          Account Balance
                                  Number
                             1        38             $(9,699.00)
                             2        13              (2,457.97)
                             3        47              (1,725.00)
                             4        26              (1,707.55)
                             5        27              (1,668.75)
                             6         7              (1,046.00)
                             7        48               (980.20)
                             8        28               (542.70)
                             9        11               (453.81)
                            10        10               (439.52)
                            11        22               (334.60)
                            12        50               (294.14)
                            13        34               (248.70)
                            14        18               (174.00)
                            15        45               (166.14)
                            16        16               (146.33)
                            17        41               (108.13)
                            18        32               (105.37)
                            19         6                (96.00)
                            20         5                (91.00)
                            21        12                (38.50)
                                  Total              $(22,523.41)

For example, in the first item in the above table, Help Group was the representative
payee for the SSI recipient when the beneficiary died in April 2004. However, Help
Group was unaware of the death. SSA continued to pay benefits through
November 2006, when it discovered the beneficiary had died. An $18,093 overpayment




5
 SSA, Guide for Organizational Representative Payees – Some Things a Representative Payee Cannot
Do.
Page 6 – Paul D. Barnes


resulted. As of November 2006, the beneficiary’s ledger showed $8,394 in conserved
funds. 6 Upon receipt of SSA’s overpayment notice, Help Group remitted the $18,093 to
SSA, which caused a $9,699 negative ledger balance.

Help Group explained it changed to a new accounting system in July 2005 but failed to
transfer the beneficiary’s ledger balance of $12,491 to the new accounting system.
Additionally, Help Group failed to record the $603 SSI payment for October 2006. Had
the $12,491 been properly transferred to the new accounting system and the $603 SSI
benefit recorded, the beneficiary’s ledger balance would have totaled $21,488 as of
November 2006. Therefore, after the $18,093 overpayment was returned to SSA, the
beneficiary would have a positive $3,395 balance instead of the $9,699 negative
balance shown on Help Group’s ledger. 7

We are concerned that for over 2 years, Help Group received funds for a beneficiary
with whom they had no contact and for whom they paid no expenses. As a
representative payee, Help Group should have known the beneficiary’s living
arrangements. Moreover, once Help Group could not locate the individual and
discontinued paying living expenses, it should have notified SSA.

This example illustrates the problems that can occur when Help Group does not
properly manage or account for beneficiaries’ funds. Had Help Group been routinely
monitoring the beneficiary ledger balances, it would have been aware the beneficiary
exceeded the SSI resource limit and initiated corrective actions. SSA should have been
notified that the beneficiary could not be located and exceeded the resource limit.
Accordingly, SSA would have stopped benefits and limited the amount of the
overpayment. Also, when Help Group returned the $18,093 overpayment, which
caused a $9,699 negative ledger balance, it should have investigated the negative
balance. Had it done so, it would have determined that its ledger showed a balance of
$3,395 remained for this beneficiary. If Help Group’s ledger was correct, it should have
remitted the funds to SSA or the beneficiary’s estate. However, because we
questioned the reliability of Help Group’s ledger balances, we did not recommend a
specific corrective action for this beneficiary’s account.

SSI Recipients Exceeded Allowable Resource Limits

Help Group allowed SSI recipients’ ledger balances to exceed the $2,000 maximum
allowed. 8 Specifically, three SSI recipients had balances over the $2,000 resource
limit. SSA recommends that beneficiary accounts be monitored so that, when balances
approach the allowable resource limit, the representative payee can assess the

6
 The beneficiary’s conserved funds exceeded the $2,000 SSI resource limit. Therefore, this beneficiary is
also included in the following section of this report.
7
  Because Help Group’s beneficiary ledgers and bank statements were not reconciled and the balance of
these records significantly differs, we question the overall accuracy of the representative payee’s financial
records. Accordingly, we did not report specific overpayment balances to be recovered by SSA.
8
    20 C.F.R § 416.1205.
Page 7 – Paul D. Barnes


beneficiary’s personal needs, such as clothing, educational, or entertainment. 9
Assessing and meeting personal needs helps the representative payee maintain
                                                                                      10
resources below the $2,000 limit and could improve the beneficiary’s quality of life.
As a representative payee, Help Group is responsible for using the benefits in the
beneficiary’s best interest and reporting when the beneficiary’s resources exceed the
$2,000 limit. If Help Group does not closely monitor the ledger balances, beneficiaries
could be overpaid and become ineligible for SSI payments.

Because beneficiary ledgers and bank statements were not reconciled and a significant
variance ($443,120) existed between the balances of these records, we question the
overall accuracy of Help Group’s financial records. As such, we did not report specific
overpayment balances to be recovered by SSA. Before overpayments are recovered,
SSA must ensure that Help Group’s records are accurate.

SUPPORTING DOCUMENTATION FOR DISBURSEMENTS WAS LACKING

Help Group did not always maintain documentation to support expenditures paid with
Social Security funds. For our sampled beneficiaries, Help Group did not obtain
documentation as to how any of the 1,070 personal allowance disbursements were
spent. Also, 235 (54.3 percent) of the 433 rent payments and 120 (51.5 percent) of the
233 other payments were unsupported. In total, Help Group could not provide
documentation supporting $229,792 in disbursements made during our audit period on
behalf of the 50 sampled beneficiaries.

For 22 (44 percent) of the 50 sampled beneficiaries, Help Group made only 2 types of
payments—rent and/or personal allowances. A personal allowance is a payment made
directly to the beneficiary for food and personal items. Help Group made payments for
expenses such as clothing, transportation and utilities for other beneficiaries.

SSA requires that representative payees keep accurate and complete records to show
the amount of Social Security benefits received and how the money was used. 11
Further, a representative payee’s primary responsibility is to ensure funds are used to
pay for the beneficiary’s current and foreseeable needs, such as food, clothing,
housing, medical care and personal comfort items. 12 Supporting documentation for
beneficiary expenses was lacking primarily because Help Group did not require the
collection or retention of receipts for personal allowances or other expenses. Receipt
maintenance is a safeguard Help Group should have in place to verify that items
purchased by beneficiaries were needed and appropriate for the beneficiary.



9
    SSA, Guide for Organizational Representative Payees – Best Practices.
10
     Id.
11
     20 C.F.R. §§ 404.2065 and 416.665.
12
     SSA, POMS, GN 00602.001 A.2.
Page 8 – Paul D. Barnes


Personal Allowances

A personal allowance is money provided directly to the beneficiary for food and
personal items. Help Group did not require that beneficiaries provide receipts to show
how the personal allowance money was spent. Therefore, beneficiaries were able to
use these funds at their own discretion. During our audit period, Help Group made
1,070 personal allowance disbursements, totaling $123,694, to the 50 sampled
beneficiaries. The allowances accounted for about 41 percent of the total payments
made to these beneficiaries. Also, almost one–third (16 of 50) of our sampled
beneficiaries received 50 percent or more of their benefits in the form of personal
allowances (Table 2). Further, 3 of the 16 received over 75 percent of their benefits in
the form of personal allowances (Table 2).

               Table 2: Benefits Disbursed as Personal Allowances
                              Percent of Benefits            Amount of
           Number of            Disbursed as            Personal Allowances
          Beneficiaries      Personal Allowances             Disbursed
                23                Less than 30                 $18,234
                 7                   30 to 40                  $19,765
                 4                  40 to 50                   $15,413
                13                  50 to 75                   $61,310
                 3                More than 75                  $8,972
                50                    Total                    $123,694

The fact that beneficiaries require a representative payee indicates that SSA deemed
the beneficiaries incapable of managing or directing the management of their Social
Security benefits. However, Help Group released a significant portion of benefits to
some beneficiaries without requiring documentation of how the money was to be spent.
Without evidence to show how funds are used, Help Group cannot be assured it is
complying with one of its primary responsibilities of ensuring beneficiaries’ needs are
met and benefits are used in the beneficiaries’ best interest.

Rent

For our 50 sampled beneficiaries, Help Group made 433 rent payments totaling
$142,801. However, 235 (54.3 percent) of the 433 payments did not have an invoice or
lease agreement to support the rent expenditure. The unsupported rent payments
totaled $94,310.

Help Group explained that it did not always obtain documentation to support a
beneficiary’s rent expense. Rather, Help Group either called the landlord to obtain the
rent amount or contacted the beneficiary to determine their monthly rent. Help Group
Page 9 – Paul D. Barnes


was aware it did not always obtain documentation to support rent payments and is in
the process of implementing a procedure that requires landlords to provide a lease
agreement or invoice to document the rent charged to the beneficiary.

Other Expenses

Help Group did not maintain documentation for 120 (51.5 percent) of the
233 disbursements made for beneficiaries’ other expenses. Of the $20,492 that Help
Group disbursed for the 50 sampled beneficiaries’ other expenses, it could not provide
documentation supporting $11,788. Help Group acknowledged that other expenses
were not always supported with proper documentation but explained that it had recently
become more diligent in obtaining receipts for other expenses.

Help Group only paid other expenses for about half (26 of 50) of the beneficiaries we
tested. According to a Help Group official, not all beneficiaries had other expenses
because their rent included utilities, and some beneficiaries preferred to have the
balance of their monthly benefits (after rent) disbursed as a personal allowance.

SEPARATION OF DUTIES WAS INADEQUATE

Help Group did not have adequate separation of duties for the disbursement of Social
Security benefits. Specifically, two Help Group employees had sole responsibility for
writing and signing checks, recording transactions, and maintaining custody of blank
checks.

Separation of employee duties improves controls and helps deter misuse of funds.
When establishing or re-evaluating internal procedures, representative payee
organizations should consider the best way to separate employee duties. Ideally, a
different person should be assigned to perform the following basic duties:

•    logging paper checks into ledgers as soon as received;
•    depositing paper checks into bank accounts promptly;
•    maintaining ledgers and bank records;
•    holding blank check stock;
•    writing checks for approved disbursements;
•    signing checks for approved disbursements; and
•    reconciling ledgers and bank accounts. 13

Help Group only had two full-time employees and two part-time employees. Given the
limited staff, we understand it is difficult to have the optimum separation of duties.
While Help Group may not be able to establish the best possible internal control
system, compensating controls can be put in place to reduce the risk of misuse of


13
  SSA, Best Practices for Maintaining an Effective Representative Payee Accounting
System - Separation of Employee Duties.
Page 10 – Paul D. Barnes


beneficiaries’ funds. Additionally, such controls will help prevent and/or detect errors in
the recordation of beneficiary receipts and expenditures.

CONCLUSION AND RECOMMENDATIONS
Help Group needs to improve its safeguards over the receipt and disbursement of
Social Security benefits. Specifically, we found that Help Group did not reconcile bank
statements, maintained improper beneficiary account balances, lacked sufficient
documentation for expenditures paid with Social Security funds, and had inadequate
separation of duties for its employees. Taken as a whole, the problems we identified
cause us to be concerned as to whether the financial records are accurate, benefits
were properly managed and beneficiaries’ needs were being met. Because Help Group
is managing benefits for some of SSA’s most vulnerable beneficiaries, it is critical that
Help Group complies with all requirements of being a representative payee.

We recommend SSA:

1. Refrain from placing additional beneficiaries with Help Group until the representative
   payee’s financial records are deemed reliable and controls are in place to ensure
   that Social Security benefits are properly accounted for. If these corrective actions
   cannot be implemented within 6 months, consider placing Help Group’s
   beneficiaries with a new representative payee.

2. Work with Help Group to reconcile the bank statement balances to the beneficiaries’
   ledger balances and resolve any resulting differences.

3. Ensure Help Group performs monthly reconciliations to determine beneficiary funds
   are properly accounted for.

4. Investigate improper beneficiary ledger balances and make certain Help Group
   takes the appropriate actions to ensure the balances comply with SSA policies.

5. Instruct Help Group to maintain sufficient documentation to support that
   disbursements for personal allowances and other expenses are in the best interest
   of the beneficiaries.

6. Work with Help Group to improve separation of duties for the receipt and
   disbursement of beneficiary funds so that no one individual has sole responsibility
   for writing and signing checks, recording transactions and maintaining custody of
   blank checks.

AGENCY AND REPRESENTATIVE PAYEE COMMENTS

SSA and Help Group agreed with our recommendations. See Appendix D for the full
text of SSA’s comments and Appendix E for the full text of Help Group’s comments.
Page 11 – Paul D. Barnes


OTHER MATTERS
At the time of our audit, Help Group employed 2 full-time and 2 part-time employees to
represent more than 500 beneficiaries. We are concerned that Help Group does not
have sufficient staff to properly manage benefits and to ensure beneficiaries’ needs are
being met. SSA policies or guidelines do not provide a recommended
staff-to-beneficiary ratio for representative payees.

At its current staffing level, we are concerned that Help Group cannot ensure
beneficiaries’ living arrangements are adequate and their needs are being met. We
understand that some of Help Group’s beneficiaries live in group homes and for these
beneficiaries, Help Group can determine whether their needs are being met. However,
assuming it takes, on average, about 30 minutes to contact or visit a beneficiary, in a
normal work week, 1 Help Group employee would be able to see or speak with only
80 beneficiaries—or 320 a month. At the time of our audit, Help Group represented
more than 500 active beneficiaries, and none of its staff was fully dedicated to visiting
or contacting beneficiaries.

We believe SSA should consider developing policy that establishes a method for
determining the number of beneficiaries that can be assigned to a fee-for-service
representative payee. For example, SSA could develop guidelines that establish a
representative payee staff-to-beneficiary ratio. Such a ratio would help ensure that a
representative payee has adequate staff to regularly visit beneficiaries and determine
whether their basic living needs are being met.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Representative Payee Responsibilities
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – Representative Payee Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                           Appendix A

Acronyms
C.F.R.       Code of Federal Regulations
Help Group   Help Group Services, Inc.
OASDI        Old-Age, Survivors and Disability Insurance
OIG          Office of the Inspector General
POMS         Program Operations Manual System
RPS          Representative Payee System
SSA          Social Security Administration
SSI          Supplemental Security Income
U.S.C.       United States Code
                                                                        Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. The responsibilities include: 1
•     Determine the beneficiary’s current needs for day-to-day living and use his or her
      payments to meet those needs.

•     Conserve and invest benefits not needed to meet the beneficiary’s current needs.

•     Maintain accounting records of how the benefits are received and used.

•     Report events to the Social Security Administration (SSA) that may affect the
      individual’s entitlement or benefit payment amount.

•     Report any changes in circumstances that would affect their performance as a
      representative payee.

•     Provide SSA an annual Representative Payee Report to account for benefits spent
      and invested.

•     Return any payments to SSA for which the beneficiary is not entitled.

•     Return conserved funds to SSA when no longer the representative payee for the
      beneficiary.

•     Ensure Supplemental Security Income recipients do not exceed their resource limits,
      be aware of any other income they may have and monitor their conserved funds.




1
    20 C.F.R. § 404, subpart U, and § 416, subpart F.
                                                                      Appendix C

Scope and Methodology
Our audit covered the period August 1, 2006 through July 31, 2007. To accomplish our
objectives, we:
•   Reviewed applicable Federal laws and regulations and Social Security
    Administration (SSA) policies and procedures pertaining to representative payees.

•   Queried SSA’s Representative Payee System (RPS) for a list of individuals who
    were in the care of Help Group Services, Inc. (Help Group), as of July 31, 2007 or
    who left Help Group’s care before August 1, 2007.

•   Obtained from Help Group a list of individuals who were in its care and had received
    Social Security funds as of July 31, 2007 or who left its care during the period
    August 1, 2006 through July 31, 2007.

•   Compared and reconciled the RPS list to Help Group’s list to identify the population
    of SSA beneficiaries who were in Help Group’s care from August 1, 2006 through
    July 31, 2007.

•   Reviewed Help Group’s internal controls over the receipt and disbursement of Social
    Security benefits.

•   Randomly sampled 50 beneficiaries from a population of 650 beneficiaries who
    were in Help Group’s care at some time during the period August 1, 2006 through
    July 31, 2007.

•   Performed the following tests for the 50 randomly selected beneficiaries:

     o Compared and reconciled benefit amounts received according to Help Group’s
       records to benefit amounts paid according to SSA’s records.

     o Reviewed Help Group’s accounting records to determine whether benefits were
       properly spent or conserved on the individual’s behalf.

     o Traced a sample of recorded expenses to source documents and examined
       the underlying documentation for reasonableness and authenticity.

•   Visited and interviewed eight beneficiaries to determine whether their basic needs
    were being met.

We determined the data we obtained and analyzed from SSA were sufficiently reliable
to meet the objectives of our review. However, the lack of bank statement
reconciliations and the significant variance between the ledgers and bank statements


                                           C-1
caused us to question the reliability of Help Group’s financial records. Therefore, for
our audit period, we determined we could not rely on the beginning or ending balances
in the individual beneficiary ledger accounts.

We performed our fieldwork in East Point and Atlanta, Georgia, between July 2007 and
May 2008. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.




                                          C-2
                                                                               Appendix D

Agency Comments


Sent: Thursday, August 14, 2008 11:50 AM
Subject: REPLY (Atlanta)- Signed Draft Report (A-04-08-28040) Help Group Services, Inc


To:     Inspector General
From:      Regional Commissioner, Atlanta
Subject: Help Group Services, Inc.--A Fee for Service Representative Payee for the
Social Security Administration--REPLY
Thank you for the opportunity to review Audit Report (A-04-08-28040), "Help Group
Services, Inc., A Fee- For Service Representative Payee." We agree with all the
recommendations as stated on the report. We will work with Help Group Services to
ensure all recommendations are implemented and that appropriate representative
payee practices are followed. Additionally, in order to properly monitor Help Group
Services, Inc., Social Security is in the process of scheduling an audit of this
representative payee's financial records with a Certified Public Account.
If you have any questions, please contact Tiffany Schaefer with the RSI Programs
Team at (404) 562-1322.
                                         Paul D. Barnes
                                Appendix E

Representative Payee Comments
                         Help Group Services
                                      P O Box 90668
                                    Atlanta, GA 30364
                             404-766-3628 or FAX 404-766-4329



August 29, 2008

To:       Kimberly A. Byrd
          Audit Director

From:     Betty Huffman
          Director

          Regarding:     Draft Audit Report

To address the issues found from our 2008 Audit, we have implemented the
following policies and procedures to correct our problem.

We have engaged the services of DAS Consulting, a Georgia based Accounting Firm
to help reconcile the client accounts, handle our monthly bank reconciliation and
provide a detail report of any variance that does not comply with SSA standards
going forward. With the initial review by the accounting firm hired, it was
determined that more time will be needed to provide a complete and accurate
reconciliation of each clients account.

As stated in the audit report in July of 2005, HGS purchased a Representative Payee
Management System (RPM), to help ensure proper managing of receipts and
disbursements for each beneficiary. The initial conversion to the new system was not
handled correctly causing a majority of the problems discovered during the audit.
The lack of bank reconciliation was an additional problem. Both items will be
corrected with the help of the new accounting firm that has been hired.

The firm estimates the projected time line to correct the inaccurate balances will
take approximately 5 months based on the volume of transaction in the system.

Based on the SSA guidelines for collecting a service fee, I am unable to employ
additional staffing to fully comply with what was recommended by the auditors. At
the current moment I personally devote approximately 80+ hours a week to
compensate from the lack of staffing.

In addition, I take extra precaution to ensure that all my client’s bills are paid
timely and allowances are properly allocated to each one. To help monitor my
clients, I work very closely with their social workers and case managers who oversee
all aspects of their lives.



                                           E-1
I have gone over and above to meet the needs of my clients and for the most part
they are satisfied with our services

I thank you for your cooperation in getting this matter resolved and can ensure you
that great steps are in place to correct the problems.

If you have any further questions, please call me at the above number.

Thank you.




                                        E-2
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly Byrd, Director, Southern Audit Division, (205) 801-1650

   Frank Nagy, Audit Manager, Atlanta Office of Audit, (404) 562-5552

Acknowledgments

In addition to those named above:

   Mike Leibrecht, Senior Auditor

   Teaketa Turner, Senior Auditor

   Luis Ramirez, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-04-08-28040.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
Help Group Services, Inc.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
